 : Department of Health and Human Services
          OFFICE OF

     INSPECTOR GENERAL





 NATIONAL PRACTITIONER DATA BANK ­

ENSURING PROPER ACCESS BY HEALTH

           CARE ENTITIES




          MANAGEMENT ADVISORY REPORT




                OEI- 12- 92- 00290

              EXECUTIVE SUMMARY

PUROSE
The purpose of this study is to assess the procedures which the Public Health Servce
(PHS) uses to assure that only eligible health care entities have access to National
Practitioner Data Bank (Data Bank) records.

BACKGROUN
According to the Data Bank regulations , at 45 CFR 60.3 , a " health care entity " is
defined as:

              a hospital;

              an entity that provides health care services and engages in
              professional peer review through a formal peer review process for
              the purpose of furthering quality health care , or a committee of
              that entity; or

              a professional society that engages in professional review activity
              through a formal peer review process for the purposes of
              furthering quality health care.

Health care entity registration records maintained by the Data Bank contractor
UNISYS , indicate that 330 group practices , 19 preferred provider organizations
(PPO' s), and 770 health maintenance organizations (HMO' s) are apparently eligible to
query the Data Bank. In addition , 890 professional societies have also been approved
for querying privileges.

FININGS
The HMO' , PPO' , group practices , and professional societies were registered by
UNISYS as health care entities under a self-certification process whereby such entities
were not required to document their eligibility for querying the Data Bank.

Representatives of the Data Bank Executive Committee as well as the media have
raised concerns about the Data Bank information being provided to ineligible health
care entities.
RECOMMNDATIONS
We recommend the following to the PHS:

              Revise the Data Bank registration form to indicate that in order
                          care entity " to be eligible to query the Data Bank it
              for a " health
              must provide health services and/or have a formal peer review
              process.

              Provide policy guidance or criteria on what constitutes a "health
              care entity.

              Review the eligibility status of registered health care entities.

Comments

PHS concurred with the first two recommendations to (1) revise the registration form
for querying and (2) provide guidance on what constitutes a health care entity.
Although PHS concurred with the objective of the third recommendation , namely, to
review the eligibility status of health care entities , PHS disagreed with our
recommendation that it verify the eligibility status of all HMO' , PPO' , group
practices , and professional associations that have already queried the Data Bank. PHS
stated , however , that it has directed UNISYS to " clean up " the entity file , which would
include asking health care entities to " self-certify" using new forms and instructions.
After a review of the new forms and guideliIJes , we believe that PHS needs to define
in detail eligibility criteria and provide a clear , unambiguous certification that wil
assure the necessary accountability; otherwise , the PHS actions will not achieve the
objective of strengthening the registration process.

The full text of the PHS comments is included as Appendix A.
.................                  .........................................
                                                              . . . . . .. .. .. .. .. . . . . .. . ... .. .. ... .....                                                               .. .... .... .......... .... ................. .
                  . . . . .. .. .. .. .. .. .. .. .. .................................................................................. .... .... .... .... .... .... .... .... .... ..                                              .. .. .
                                                                                                                                                                                                                                     ..    . ..




                                    TABLE OF CONTENTS

    EXCUIV SUMY
    INODUCTION. .
       Purpose. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

       Background

    FINING
        Inadequate Registration Policies. . . . . . . . . . .

        Health Care Industry Concerns



        Medical Economics Article. 


    RECOMMNDATIONS ........................................... 5

        Revise Registration Form for Querying. . . . . . . . . 


        Provide Guidance on What Constitutes a

          Health Care Entity " .......................................... 5


        Review Eligibility Status of Registered
         Health Care Entities

    APPENDIX A

    APPENDIX B                                                                                                                                                                    . . . . . . . . . . . . . . B­

    APPENDIX C . . . . . . . . . .                                                                                                                                                                                     . . .. C­
                             INTRODUCTION

PUROSE
The purpose of this study is to assess the procedures which the Public Health Servce
(PHS) uses to assure that only eligible health care entities have access to National
Practitioner Data Bank (Data Bank) records.

BACKGROUN
The Office of Inspector General (OIG) is responsible for imposing civil monetary
penalties (CMP' s) for improperly disclosing information maintained by the Data Bank.
Pursuant to this authority, the OIG has been monitoring implementation of the Data
Bank to assure the presence of effective controls regarding releasing Data Bank
information. This   oversight activity has encompassed (1) an on going review of Data
Bank policies and forms; (2) discussions with the PHS and health care industry
representatives , including officials from UNISYS , the Data Bank contractor; and (3)
attendance at meetings of the Data Bank Executive Committee and the PHS
Interagency Council on Quality Assurance.



An initial result of this activity was the report we released on August 26 , 1991 , entitled
 Controls Over Authorized Agents " (OEI- 12- 90- 00530). This management advisory
report recommended strengthening policies and forms governing the participation of
authorized agents to insure that the confidentiality of Data Bank information is
maintained.

As a result of our ongoing review of the Data Bank policies and procedures , we
believe that the PHS needs to strengthen the Data Bank registration procedures to
assure that only qualified health care entities have access to the Data Bank
information.

According to the Data Bank regulations , at 45 CFR 60. , a " health care entity" is
defined as:

               a hospital;

               an entity that provides health care services and engages in
               professional peer review through a formal peer review process for
               the purpose of furthering quality health care , or a committee of
               that entity; or
                                            , "   ...                                ...




              a professional society that engages in professional review activity
              through a formal peer review process for the purposes of
              furthering quality health care.
The regulations , at 45 CFR 60.3 , also define " formal   peer review process "   as " the
conduct of professional review activities through formally adopted written procedures
which provide for adequate notice and an opportunity for a hearing,

According to the Data Bank Guidebook      a medical school , physician group practice
or preferred provider organization (PPO) which either does not provide health
servces or does not have a formal peer review system wil not         meet the... definition of
a health care entity, and , therefore is ineligible to... query the Data Bank...

Registration records provided by UNISYS indicate that , as of June 1991 , a total of 330
group practices , 19 PPO' , and 770 HMO' s have been registered , i. , approved , by
UNISYS to query the Data Bank.         In  addition , 890 professional societies have also
been approved for querying     privileges.
                                            FINDINGS

A number of factors indicate that there are health care entities with the Data Bank
querying privileges who may not meet the regulatory definition and therefore have
unauthorized access to the Data Bank records. These factors are as follows:

Inadequate Registration Policies

About 80 percent of all entities were "pre-registered" by UNISYS , the PHS contractor
prior to the September 1990 opening of the Data Bank. These entities were identified
for registration through mailing lists obtained from national associations or health care
organizations such as the American Medical Association and American Hospital
Association. These entities were assigned registration numbers by UNISYS and then
required to " certify" that they were a qualified health care entity. UNISYS , however
did not perform any review to determine if the entities actually met the definition of
health care entity.

All entities that wanted to participate in the Data Bank after it opened in September
1990 were given a registration number only after they filed out a " registration form.
However , this form did not require health care entities to submit documentation on
what health services they provided or the nature of their peer review.

Furthermore , while the Data Bank registration form requires that an entity " certify"
that it is eligible to query the Data Bank , the form does not define eligibility, even in
broad terms. Since no eligibility criteria are clearly stated on the form , it would be
difficult for an entity to know if it complied , and therefore the " self-certification
process itself may be questionable. Also , the warning on the query form only indicates
that penalties exist for false statements             made. It is possible that most
                                               knowingly


improper releases result from the lack of    available guidance and that most entities do
not knowingly make false statements when they request information.

Finally, reliance on self-certification for querying the Data Bank seems to make it
difficult , if not impossible , to identify any improper requests for information. It would
appear to remove the incentive for UNISYS to have effective controls in place to
assure that information is not improperly released,

Health Care Industry Concern

National organizations such as the American Medical Association , American Hospital
Association , and American College of Obstetricians and Gynecologists have expressed
concerns with the confidentiality of the Data Bank information and procedures used
for participation in the Data Bank. A March 9 , 1990 , memorandum from the PHS to
the Office of Management and Budget concerning the proposed procedures and forms
relating to the Data Bank participation stated:
        Confidentiality of data is an issue that several commentators are
       concerned' about..In all cases we have believed it best to place the
       burden of responsibility for defining eligibility to request information
       upon those entities , individuals , State boards , or professional societies
       who make the request..

At the July 11 ,   1991 , meeting of the Data Bank Executive Committee , concerns were
expressed that the large number of group practices registered with the Data Bank may
not have " formal   peer review,


Medical Economics Article

The May 6 , 1991 , issue of " Medical Economics "    expressed concern over the broad
definition of " health care entity " and was critical of the " self-certification " registration
process. The article noted:

        As of February, according to government figures , about 12 500
       organizations had been authorized to query... the Data Bank. When
       added up all the nation s hospitals , HMO' , licensing boards , the total
       fell short of 12 500 by 5 000... exactly who they are is anyone s guess.
                                                                               ...




                   RECOMMENDATIONS

We believe that all the above factors indicate the need for the PHS to take action as
soon as possible to assure that only qualified health care entities have access to the
Data Bank records. We have three recommendations for the PHS.

Revise Regitration Form for   Querying

The PHS should consider revising the registration form to indicate that in order for    a
 health care entity " to be eligible to query the Data Bank it must provide health
servces and/or have a formal peer review process.

In addition ,we note that the form provides a warning that " Any person who knowingly
makes a false statement or misrepresentation to the National Practitioner Data Bank
is subject to a fine and imprisonment under Federal statute.

Under the OIG civil money penalty authority, at 42 CFR Part 1003 , imposing civil
penalties for violating the confidentiality provision of the regulation is not contingent
upon a " knowing " or "willul" act , although these factors can be considered in
determining the actual amount of the civil penalty. We would therefore also suggest
that the registration form indicate that a CMP can be imposed if an ineligible " health
care entity " obtains the Data Bank information.

Provide Guidance on What Constitutes a ' 'Health Care Entity

We note in the preamble of the Data Bank final regulation , in the section dealing with
the definition of health care entities , that the Department indicates that it " prefers to
define this term broadly, rather than to attempt to focus on the myriad Qf health care
organizations , practice arrangements , and professional societies...

While we acknowledge the utility of such broad definitions , we are nevertheless
concerned that the lack of any detailed policy guidance or operational criteria on the
definition of health care entity jeopardizes the integrity of the Data Bank information.
We therefore recommend that the PHS develop such guidance or criteria. Such
guidelines could be provided for on the registration form , or as part of the registration
kit , or in the Data Bank Manual.

Review Eligibility Status of Registered Health Care Entities

While we recognize that it may not be feasible to review the eligibility of all health
care entities currently registered as HMO' , PPO' , group practices , and professional
associations , we recommend that such a review take place as soon as possible for all
such entities that have already queried the Data Bank. The remaining entities could
be evaluated at the time UNISYS conducts its periodic review of the registration file
                                        ...




which we understand will take place every year or two. Such a review would involve
providing these " inactive " health care entities with guidance on what constitutes an
eligible health care entity for querying privileges and advising them to contact
UNISYS if they have questions regarding their meeting such Data Bank requirements.

Alternatively, UNISYS could require all entities to describe the nature of their health
servces and/or formal peer review program for PHS/UNISYS analysis and approval.
If the PHS decides to adopt this latter approach , we are providing, as Appendix B , an
example of a questionnaire that could be used.

Public Health Service Comments and OIG Response

The PHS concurred with the first two recommendations to (1) revise the registration
form for querying, and (2) provide guidance on what constitutes a health care entity.
PHS indicated that the target date for implementing both recommendations will be
October 1992,

We are accepting the PHS actions on these two recommendations. We would
appreciate receiving a copy of the revised registration form and the expanded
definition of health care entity.

Although the PHS concurred with the objective of the third recommendation , namely,
to review the eligibility status of health care entities , the PHS disagreed with our
recommendation that it verify the eligibility status of all HMO' , PPO' , group
practices , and professional associations that have already queried the Data Bank, The
PHS stated , however , that it has directed UNISYS to conduct an extensive update of
the entity file so that the file " wil contain only those entities that are authorized to
use the Data Bank."

The PHS description of this " update " process and the forms that are beiug used
(which were recently provided to the OIG -- see Appendix C) indicate that the PHS is
continuing to rely on 
 he " self-certification " concept. We note that the proposed letter
to entities , Form L61.1 (dated 5/27/92), includes the statement " Entities are
responsible for certifying that they satisfy the requirements for participating in the
Data Bank." We     also note that the letter does  not provide detailed guidance as to
what constitutes eligibility. It also does not discuss the limited guidance set forth in
the regulations (see 42 CFR 60.3 , definition of " Health Care Entity " and " Peer Review
Process

Furthermore , while Section C of the certification form acknowledges that civil money
penalties can be imposed if an ineligible entity obtains information from the Data
Bank , the actual certification is confusing. Entities have two choices on the form: (1)
they can certify that they are eligible to query and/or report; (2) they can certify that
they are ineligible to query or report. Given such an option, what does an entity do
that is eligible to report but not to query (such as a malpractice insurer)? Does it
certify that it is both eligible and ineligible? In order for the certification to be
meaningful , questions concerning reporting and querying should be separate.

If the PHS wishes to continue to use the self-certification mechanism , the process and
forms need to (1) define in detail eligibility criteria and (2) provide a clear
unambiguous certification that wil assure the necessary accountabilty; otherwise , the
proposed PHS actions wil not achieve the objective of strengthening the registration
process,

Finally, the PHS response noted that those health care entities that were " pre­
registered" were also required to certify that they were a qualified health care entity.
We have revised the report to reflect the PHS clarification,
      APPENDIX A

TH PUBLIC HEALTH SERVICE COMMNT
     . ,.."                :. .: .:':   '::.   ::   ::                            () . 
             ..


                            DEPARME OF REm                              &. HU.MAN   SECE                      Pu t-
C;
        .f(r
                                                                                                                emorandum
                                        1 srl


              Fr.. r. .                                  c :r   eta r y for   Health


              Subjec Office of Inspector General (OIG) Draft Management Advisory
                          Report " National                Practitioner Data Bank--Unauthorized Access by
                             e!ig lc                 Health Care Entities , " OEI-12-92-00290
                          Inspector General, OS



                          Attached are the PHS comments on the subject OIG draft
                          Management advisory report concerning the possible registration
                          of ineligible health care entities for participation in the
                          Nation41 Practitioner Data Bank (Data Bank).

                          We concur with the first two recommendations to (1) revise the
                          registration form for querying, and (2) provide guidance on
                           ha t const i tutes a health care enti ty. In our comments, we
                          state the actions taken or planned to implement them.

                          We al so             concur wi th                      ecti ve of the
                                                                   last recommendation.
                                                                      the obj
                          We have directed a contractor to conduct an extensive update

                          the "               This will ensure that the "
                                    entity file.                                                          entity file
                          will contain only those entities who have certified that they
                          are authorized to access the Data Bank.

                                                                                       Iv
                                                                                    Mason, M. D., Dr.


                          Attachtlent




                                                                                 A - 2

     COMMENTS OF THE PUBLIC HEATH SERVICE ON TH OFFICE OF
    INAPECTOR GENERA (OIG) DRA MAGEMEN ADVISORY REPORT
       luNJU PHACTITIONER DATA BA -- UNAUTORIZED ACCESS BY
                                                 92- 00290
        INELIGIBLE HETH CAE ENITIES, " OEI-

GENERA COMMENTS
Inadeauate Reaistration Policies

We note that some of the OIG statements in the first paragraph

under this heading on page 3 of the report co ld be more
clearly stated. The " registration" prior to the opening of the
National Practitioner Data Bank (Data Bank) was largely an

effort  o create a mailing list of potential customers with

whom we could communicate at an appropriate time. 

intention, and the actual practice of the contractor, has been

to only activate a listing in the system after certification by

the entity, a process separate and distinct from the early

registration process. Early registration did not gain
automtic access.
The following comments are provided in response to the report'

recommenda tions 


OIG RECOMMENDATION

    se Rea stration Form for Ouervina


The PHS should consider revising the registration form to
indicate that in order for a " health care entity" to be
eligible to query the Data Ban it   must provide health services
and/or have a  forml peer review process.

In addition, we note that the form provides a warning that " Any
person who knowingly makes a false statement or
misrepresentation to the National Practitioner Data Bank is
subject to a fine and imprisonment under Pederal Statute.

Under the OIG civil money penalty authority, at 42 CFR Part
1003, imposing monetary penalties for violating the
confidentiality provision of the regulation is not contingent
upon a " knowing" or " willful" act, although these factors can
be considered in determining the actual amount of the civil
penal ty . We would therefore also suggest that the registration
form indicate that a civil monetary penalty can be imposed if
an ineligible "health care entity " obtains the Data Bank
infoJ:ation.




                           A - 3

PHS COMMENT

We concur. We will include the recommended revisions,   with
other revisions to the registration fo   for querying, during

the upcoming round of form changes to be completed by

October 1992. 0IG RECOMDATION

Provide Guidance on What Constitutes a " HealthCare Entitv
We note in the preamle of the Data Bank fina regulation, in
the section dealing with the definition of health care
entities, that the Departent indicates that it . .. .prefers to
define this term broadly, rather than to attempt to focus on
the myiad of health care organizations, practice arrangements,
and professional societies...

While we acknowledge the utility of such broad definitions, we
are neverteless  concerned that the lack of any detailed policy
guidance or operational criteria on the defintion of  health
care entity jeopardizes the integrity of the Data
infor.tion. We therefore recomend that the PHS develop such
guidance and criteria. Such guidelines could be provided for
on the registration form, or as part of the registration kit,
or in the Data Bank Manual.

PHS COMMENT


We concur. We will provide   furer guidance and clarifychanges
existing definition of " health care entity" though the
                                                        the
to the Data Bank Manual which are scheduled for completion by
October 1992.

We plan to elucidate existing policy guidelines by providing
addi tional examples of health care organizations, practice
arrangements, etc., which could be expected to qualify as
health care entities under the Data Ban regulations, because
  ley (1) are engaged in the provision of health care services,
and (2) might also conduct professional review activities
through a forml   peer review process. Examples of such
organizations include nonhospital- based, separately
incorporated, skilled nursing and rehabilitation  facilities;
freestanding, independent medical and surgical care  facilities
such as end-stage renal dialysis centers; and other such
providers of disease-specific or specialty-oriented medical and
surgical care services. Further, we will provide additional
guidance to assist professional societies in making decisions

regarding whether or not they qualify as " health care entities
under the Data Bank regulations.




                             A - 4

. .     ::'                                             ..




      OIG RECOMMENDATION

      Review Eliaibilitv Status of Reaistered Health Care Entities

      While we recognize that it may not be feasible to review the

      eligibility of all health care entities     cuntly
          l th maintenance organizations, preferred provider
                                                               registered as

      organizations, group practices, and professional associations,
      we recommend trhat such a review take. place as oon as possible
      fQr        h entities that have already queried the Data Bank. The
          ::":r. :;; 671'tities could be evaluated at the time UNISYS
      conducts its periodic review of the registration file, which we
      understCind will  tae                        tw.
                                  place every year or       Such a review
      would involve providing these - inactive- health care entities
      with q11;d nce on what constitutes an eligible health care
      entity for querying privileges and advising them to contact
      UNISYS if they have questions regardg their meeting such Data
      Bank requirements.

      Alternatively, UNISYS could require all entities to describe
      the nature of their health services and/or     forml
                                                        peer review
      program for PHS/UNISYS analysis and approval. If the PHS
      decides to adopt this latter approach, we are providing, as
      Appendix A, an example of a questionnaire that could be used.
      PHS COMMENTS


      We concur with the objective of this recommendation. However,
      rather than initiating a review of the eligibility status of
      the registered health care entities, we have directed the
      contractor to conduct an extensive update of the so-called
       enti ty file.  This file contains a listing of orq izations
      (1) which have certified that they are authorized to access the
      Data Bank, and (2) which may be eligible but have not certified
      that they are authorized to access the Data Bank.
      Following the update, the " entity file" will contain only those
      entities that have certified that they are authorized to use
      the Data Bank. Those entities who do not certify that they are
      authorized to use the Data Bank will be eliminated from the
       entity file.   We believe that this would be the least
      expensive and quickest way of ensuring that those who query the
      Data Bank have certified that they have the proper
      authorization.




                                    A - 5

    APPENDIX
PROPOSED OIG QUETIONNAI FOR
REVIWIG HETH CAR NTITlE
GENERA INORMTION
   What is the name of your organization?

   Please describe the nature of your organization and the services or busness it is
   engaged in. 

   If you have a brochure or other written document describing your organization
   please enclose a copy.



   Is your organization licensed, regitered, or accredited by any State or local
   governmental entities?

   If yes , please specify the governmental entity(ies), whether you are licensed
   registered , or accredited , and the type of category in which you are licensed
   registered , or accredited.

   Does your organization do busness in more than one locale or through contracts
   or a"angements with other groups or individuals?

   If yes , please specify the different locales and the types of contracts or
   arrangements that you have.

   Why did you regiter with the National Practitioner Data Bank?

   For what purposes do you intend to query the National Practitioner Data Bank?


HETH CAR SERVICE PROVIED
   What types of health care services, if any, does your organization provide to the
   public?

   Does your organization provide any health care services directly through its own
   employees or staff!

   If yes , approximately what percentage of services are provided through
   employees or staff?

   Does your organization provide any health care services indirectly, through
   contracts or a"angements with health care providers or practitioners?

    If yes , approximately what percentage of services are provided through
    contracts or other arrangements?
    If yes , do such services include non- institutional services?

    What responsibility, if any, does your organization have to revew           the qulity
   services provided indirectly through contracts with other health care providers or
   practitioners




    If a patient was dissatisfied with the quality of services provided by such a
    provider or practitioner , would the patient have a right of recourse against your
    organization?

    Does your responsibility or the extent of the patient s recourse vary with the
    tye of service ,   e.
   , institutional versus non- institutional?   If yes ,   please explain.


PEER REVIW

   Does your organization conduct any peer review activities, i.e., activities which are
   designed to review the professional competence or professional conduct of health
   care practitioners?

    If yes , please describe briefly the nature and extent of the peer review activities
    that your organization conducts.



    If no , does your organization arrange for peer review activities to be conducted
    by an outside source? If so , please describe briefly the nature and extent
    such arrangements. Please enclose a copy of any written arrangements or
    contracts,

   Does your organization have written procedures which set forth how or by whom
   peer review activities will be conducted?

    If yes , were those written procedures formally approved or adopted by your
    organization?

    Do those written procedures provide for prior notice to a practitioner
    concerning adverse actions (i. , actions that may affect the practitioner
    present or future employment or clinical or staff privileges or membership) that
    may be taken against such practitioner?

    Do those written procedures provide for an opportunity for a hearing on any
    adverse actions? 

    Are written records maintained for your organization s peer review activities?

    Please enclose a copy of the written peer review          procedures,
                                                          --




If your organization provides services in diferent locales or through affliated or
subsidiary groups, how are peer review activities handled     are they handled
centrally or separately by each locale or group? If separately, is the information
shared with all the locations or groups?




                                     B - 4

          APPENDIX
REVISED ENTIT SELF- CERTIFICATION PROCEDUR




                   C -

     :::::                        :::::        :::::::                                                                                         :;::                    ~~~                                 :::::           :::




             ::::::::i:I:I:
                       !!:!i:::           :::!1:;
                                                           4fWt€lfB::ij:!Il.                                                                           j.r                                       ::::II:::::I. i:i:::I::::::::
                                                                                                                                                                                      I!!:III: :I:


 r ,v, )S 
                                                UU                  CA      9311-'                                                                                        1-8767-632

 W,s wc:!'= m:,: 1(                                       veri tht th inormtion                           abut your orgation                          on fi with th           Natina       Prtioner
 Data Bank is up-tCMte . We ha                                                          endo
we cuentl
                                   II
                                                    have on fie, wbch we would
                                            doent IaIrR du IIlDorm II co
                                                                  to
                                                                                                         an
                                                                                                                    En FIl
                                                                                                              Uk you to reew,
                                                                                                                             Ver

                                                                                                                                                Plea al
                                                                                                                                             01 to    ma
                                                                                                                                                                       8I     nt
                                                                                                                                                      doent, contag aU inormtion
                                                                                                                                                                                     th       Bn F*
To make changes to the inrmtion weha on fie for your orgatio plea (1) cr out the
inccte inormtion on En FIl                doent, (2) prit the mrrec inormon to
of the inccte inormtio (3) coplete and sign Seon C, and (4) reur
docent to the Data Ba      ad ab Goenta entities should alEn
                                                                        the

                                                                          FIl
                                                                       complete Seon
                                                                              81 the
                                                                                                  Ver

                                                                                                                                                                       the                   Ver     the right




Some inormtion
                   ad                                      abut your orgation ma be tnc:te due to                                                 cbr
                                                                                                                                                  chrslitations for ea                               category.

spce Plea kep thes cI
For euple,                                          nae, str                             and sta          titl ar lite                 to 40             includg pUDtion an
                                                                                             litations in mi when chgig inormtion.
Afer we have entered your
your chges have be ma Th
                                                                              chge you wi                     re        an

                                                                                                              t wi be maed to
                                                                                                                             En Upd                    Not

                                                                                                                                             the attention of the
                                                                                                                                                                             doent veg tht
                                                                                                                                                                              Re Ree SI
Ti               deignte on                                 the        En FIl          Ver                    doenL
If the                cut
indicatig tht aU inormtion is
                                                     inormtin on th              En FIl
                                                                                corr
                                                                                                   doent is mrr plea (1) ch the spa
                                                                                                 Seon
                                                                                                              Vt:

                                                                                                      B if approprite (3) mmplete and sign
                                                                                                      to the Data Ba at the ad ab
                                                                                      (2) mmplet
Seon C, and (4)                                            retur th            En FIl         doentVer




Brief exlations                                           of ea          sen           of the
                                                                                                   En Fw              Ver                doent fonow
SECI0N A:                                           EN INORMTION
Eadty Name,
matc the inormtion on fi
                                     ad
                                     Ba
                                          prode in Seon A of an
                                           ren
                                                                   Ba
                                                Addr Th entity nae and
                                                       wi not be aate if the nae
                                                                                                                      you                                                     Data            form must.

and
me with th
             ad inrmtion
                    Ba
                         do not matc
                              nae an ad
                                        Ba doents ar set to the nae ades
                                             Data                      DO th
                                                                              with th Data
                                                                                                        Al Data
                                                                                                                      Your                   or query
                                                                                                                                                                                     and
                                                                                                                      you prode on a form

Ba TyEr/Q
Eadty      Th co is us to detee your orgation s elgibilty to quer and ren to the Data
                                                      detee
                 of             is enclos to help you          whether the                                                                                                            axe we have
on fie is mrr
                       An                                               En                   Co
                                                                                  7)




Rert Resas Stl Title: Al Data Ba doents ar maed to a spec sta title. Al Data
doents rete to medca maprace payment or               acon rert wi be           to the Repon
Repons Sta Title. If a title ha not ben deignted aU repon inormtion wi be set to the attention
                                                                                                                        ad                                                   di
oPc.O,- You may includ an indivdua's nae with th sta title; howev, an indidua' s nae and
sta title ma DOt      40                                  =c chrs,
                                    includg space and punauation.

Quer Respous StaTltle: Al Data
QUC Respons Sta Title. The Data Ba is unble to            .Acc             to a sepate biling
                                                                                             Ba query respons
                                                                                                                             ad
                                                                                                                                   and.Acc                   SU

                                                                                                                                                                  SU
                                                                                                                                                                             wi be   di                   to the
offce at th tie. If sta title ha not ben deignted al query inormtion wi be set to the attention
of - c.E.O,- You may includ an indidua' s nae with th sta title; how, an indidua' s nae and
sta title may not cm 40 chers, including space and punauation.




OSfnfJ                                                                                                                                                                                                        1.1.
                                                                                                                C - 2

                                                           ......                   /) 


SE0N A: EN                            INORMTION                   (CD
    Inor: 1f)'fiha degnteBa AgtJU qu
                                   ad th      Ba       be plea mnf
                                         routi iDtnDS) .. corr An
                                                  (e.g. Data
                                                                  an
                                                                     ID,
                                                                             10                       Data           on )'ur
                                                                                                                                             Agent
tbt th inormtioD OD
   indidua or ortiOD degnte         ma            be      e:ple, a
                                                                                                                         Re
is an                                                             by an eatity 10                    quees OD     its          for          County
                                  degnte                           frm
Medca Soety or
the Data Ba OD itS be Pl DO th th Agt aa th
the Auori Rereta      Is 8D
                            ma be
                             State Hospita



                            IDda wltb 8D eoty wh c:es th Ieti
                                                                  tiOD
                                                                  ar dlernt;
                                                                 of laormUoD
                                                                                                           AD
                                                                                                      by a hopita 10       reuet inormtioD



prded to th Da Br ad      th Agt    IDdea orUo         wi Ita OW Da    Ba m
                                                                        Is 8D

DW. AD entity tht us an Agent ma opt 10 ha al que repons route 10 the Agent.
SECI0N B: GOVEAL                                        EN DESGNA110N
Gc
 tb da               Ea          DN.,.
                                                       da Cita sta
                                                         Th Data          Ba c:tI

                                                                   eatities ue aept frm thes intet cbges
                                                                                                                intet on an amunt        outadig
more

Seou Baae 01
              30
aardc: with fed
                             pat th bDlg
                                      regutions

                                                    Fi
                                                            fe JO li .
 or                eDUty, pl mmplet
                                                             ....mt 8D re It to th Da Ba Completg
                                                                                                      lo




regActh doent wi eale th
OD )'ur
                                th      E1               Yer

                                                               Data    te th intet cbges whch ma be appg
                                                                        Ba         10    elimina


                                    cled as gota              eatities ba on thei                                                         rept
got
Some eatities may ha be

gota     reburent
                  )'ur
                           fici
                       OrgtioD
                                 sapon for prdi
                               must be an agcy,
                                                  or     beth
                                                authority,
                                                                ca sece To qua
                                                           iDtJtaty,    or politi subioD
                                                                                                                                                as a

                                                                            of Pu Rim, a
          entity,
of a fed            lo goent, th Ditr
                    stte or                 of Columbia    th Commonwth
Pacc Ba juron,
            goen reurt
                                               Unite State or an
                                          a telOry or                              or nation.
                                                                           OD of the                                     Indi uibe bad,
The rept of                                                        or    ftnanml suppon for prodig heath ca                          sece by itslf
is iDcient 10 qua goenta entity.       as a




SE0N C: CETICA110N
Ceea
         in
4S a: Pa 60
ID th Dat Ba
               th



                   To  be
                           EDUda ar

                          elgible to
                                     for
                                         th Data Ba
                                                        lt c:
              Th asignt of a Data Ba ID is DOt a reretatiOD by th U.s Depaent of Heath
and Hum Sece tht your ortiOD me th reuimeDts for pacipatiOD in the Data Ba
sped           HtJ CI QJ                        198, as amen 8D its impl entig regutions
                                                 tb th sa th
                                                       an entity must be (1) a
                                                                                ACt of

                                                                                for padpati
                                                                               Bo    of Medca
J:ftmin er or oth State liing bo (2) a hoita (3) a heath ca entity, other th a hoita tht
                                                                                                                     reea
pr
pr prheth ca sece an
            or' (4) a      prfesona soet
                                                        engages in         a form
                                                                           form pe reew acty thugh
                                                               tht eagap in profe5ona reew acty thugh
                                                                                                                 ta ad
                                                                                                                                         pe reew
                                                                                                                                       a form
reew            tht m.    AD entity a medca maprce p8'1ent or    an       liure acon,
clca       prieges acon, or prfesiona soety memhip acon, as speed by Data Ba regutions,
must      rert the paent or th                         acon 10    th Da
lf)'u have      be            Ba ID but ue ingible to repon to or query the Data Ba plea
                           asigned a Data
ch        th ScDd cecatiOD statem Sen C
doent, an retum it 10 th Da Ba at the ab add
                                                     En Fil     t in       doent, sign the  of the                 Yer




Tb
the
           )'u for)'ur
      En Fil        Yer
                              mopetiOD and pacipatioD. lf)'u
                                           doent, plea ca                   the
                                                                                               have any quetions
                                                                                             Ba Help       UN
                                                                                                                         reg  the mmpletion of
                                                                                                                 at 1-8767-6732, wekdys from
8: a. 10 6:00 p.m (5:3 p.m Frida) Eatem 11e.


05H1                                                                                                                                            1.1.
                                                                      c - 3

--.... --- -.- - ..-
:::::::::::::::,:::::::-::::::: :::::                                                                        :::




EXPLAATION OF                                                        EN TYE CODES

                           ::i;,        :::::::::::i;                 4m'      r:BI
                                                                            I::::                :i:::IK                                                        i:::,
                                                                                                                   ::li::1il::ii!::il::il::!:I:i:ilil:II:::il::::i:
                                                                                                                                                          II:::



    f".       I' AA " Ca!l CA f31140                                                                                1-8767-6



CODE                          EN TYE
                              Publi or Prte Medca Maprace Pay (non-U.s Gomment)
                                        S. Goverent                 Medca Maprace 

                              State Liceing Bo for Alopathc Physic

                              Stale         Bo for Ostepathc Phici
                              State Compote Uceg Bo for Physici
                              State Bo of Detitr
                              Stte Uceing Bo fo Oth Heath Ca Prcttioners
                              Stte Uc:g Bo for Heath Ca Entities
                              Pulic or Prite Hosita (non-U.s. Goent)
                              u.s               Got                 Hospita

                              Heath Matece Ortion (HO)

                              Prer Prde                             Orgtion (PPO)

                              Group Med                            Prce

                              Other U.s                  Goent Heath Cae Entity
                              Other Pulic or                       Prte Heath Ca Entity (non-U.s. Gornent)
                              Prfesona Soet for Alopathc Phyici
                              Prfesona Soety for Ostepathc Physici
                              Prfesona       for Detits    So
                              Prfesona Soty for Other Heath Ca Prcttioners
                              Maprace Litigat - Self
                              Mapra Litigat - Agent/Attorney
                              U.s Drug                  Enorcent         ,Admini!l trtion
                              Seta, U.s Depaent of Heath and Hum Servce
                             Authori Agent (not otherw eligible to query the Data Ba)




05!2                                                                                C - 4
                                                                                                                                                      El2.1
...............
................  .........
... ......... .......
                   ~~~~         ............
                             .....
                      .... ....
                  ............................
                   '"                               ...........
                                             .............
                                   ....... ......  .,.....        -- ...........................................................
                                                                 .........
                                                             ...............     ............................
                                                           
........................                           .............
                                                                                     ..... ........... ...... .....            ..... .................
                                                                                                                    ...... ... .....      .........
                                                                                                                                     ... ........    ...
                                                                                                                                                  ......
DATA BANK 10. 210063200002158                                                 EHTIJY_ fILe VERIFICATION                             PROCESS DATE. 01113191
YOUR ENTITV' S INFORMATION IN SECTION A IS THE INFORMATION CURRENTLV ON FILE IN THE DATA BANK. PLEASE CERTIFY THAT ALL
INFORMATION IS CURRECT. UR INDICATE TltE APPROPRIATE CHANGES. TO CHANGE INPORMATI0N. (1. CROSS OUT THE INACCURATE INFORMATION. AND
(2) PRINT THE CORRECT INFORMATION TO THE RIGHT OF THE EXISTING INFORMATION. IF YOU ARE A GOVERNMENTAL ENTITY. COMPLETE

SeCTION B. CERTIFV YOUR ENTITY' S ELIGIBILITY IN SECTION C AND INCLUDe AN ORIGINAL SIGNATURE IN INK.

PLEASE RETURN THIS DOCUMfNT TO THE NATIONAL PRACTITIONER DATA BANK. P. O. BOX 8048. C_MARILLO, CA 83011-8048. If YOU HAVE ANY

QUESTIONS. CALL THE PAtA BANK AT 1-800-767-8732. PLEASE RETURN THIS FORM EVEN IF ALL INFORMATION IS CORRECT.

SECTION A. EHTITV INFORATION                                                          ALL INfORMATION IS CORRECT.
ENTITY NAME.                                          with .gent specified C.1.
srREET ADORESS.                                       AAAAAAA
CITV . STATE. ZIP CODEI                               eeceeeeec. CA 99999
I f.LEPHONE NO. a                                     000 000-0000
I:N I   Ilv TYPE                                      10, NON-FEDERAL MALPRACTICE PAYER

REPORT RESPONSE STAFF TITLE.

QUERv RESPONSE STAFF TITLE.

AGENT DA       A BANK IDa                              21006200000240 I
AGENT NAME I                                          ZZZZZZZZZZZ
STREET ADDRESS.                                       ZZZZZZZZZ
( I TV. S 1 A I . ZIP CODE:                           ZZZZZZZZZ,      ccecc
11:Li;PHONE NO.                                       000 Ooo-ooon
    ENT START DATE.                                   07/19/91
AGENT . STOP DATEa                                     10126/92
AtOtNf ROUTING..                                       TO AGENT

StCTJON B               COVE                 rLT!                    CHECK TYPE OF GOVERNMENTAL ENTITY. IF APPLleAoLE.    PLEASE CHECK ONLY ONEI
         FEDERAL                     STATE                 LOCAL              PISTRICT OF COLUMBIA, COMMONWEALTH OF PUERTO RleO. PACIFIC BASIN JURISDICTION;
                                                                          -- U. S. TERRITORV OR POSSESSIONI INDIAN TRIBE. BAND. OR NATION
gmgN                    CERTIfiCATION               CHECK THE APPLICABLE STATEMENT BELOW.
         I CERTIFV THAT THE ENTITY OA INDIVIDUAL IDENTIFIED IN SECTION A OF THIS DOCUMENT IS AUT'                      AIZED TO REPORT TO ANDIOR QUERV THE
  OIONAL ')IHCTIYIOHEN DAU ItANK UNpER THE PAOVISIONS Of PUBLIC LAW 99-860. AS AMENDED . AND AS SPECIFIED IN 45 CFA PART 60. I ALSO
UH11fV 111A             I" I   AM   UTIIUAIZED TO SUBMIT THIS RESPONSE TO THE DATA BANK. AND THAT lHE INFORMATION f'ROVWED IS TAUE AND COMPLETE.
         THE EtIlTV OR 1NUIVIPUAL IUENTlFIED IN SECTION A Of THIS DOCUMENT IS NOT ELIGIBLE TO REPORT TO OR QUERY THE NATIONAL

mCT I T IONE. 1 DATA t-ANK,
 /ARtHNG: IV PERSON WlIO MAKES A FALSE STATEMENT OR MISREPRESENTATION TO TtIE NATIONAL PRACTITIONER DATA BAtite IS SU8JECT

     fiHf.  UJ IMPR'SUNMENT ""Df:R HUt-HAl.
001AIN$ DAl \ DANK IrfrORMATIOt'.

                                                                   SIAWIE.
                                                  CIVil. MONty PENAtrlES CAN BE IMPOSEII IF AN INELIGIItLI! I:NTITY OR INDIVIDUAL

I'H.n      ED NA        . OF AUHIONIZED kEPRF.SfNT.I\TlVE OR INDIVIDUAL
"IUNIED 111 - E OF APTHONIZED RE..lltSENUliVE
    I EPHDNE            IMBER (                                                                  SIGNATURE PATE
 SIGHATURE ,. - AUTttlRllEIJ REPRESENTATIvE UR INDIVIDUAL
                                                                                           c - 5

